Memorandum from the Office of the Inspector General



June 27, 2011

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2009-12910-05 – PEER REVIEW OF JOHNSONVILLE
FOSSIL PLANT DIKE STABILITY IMPROVEMENTS



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and/or actions taken, have been included in
the report. No further action is needed.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Deana D. Scoggins, Senior Auditor, at
(423) 785-4822 or Greg R. Stinson, Director, Inspections, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:FAJ
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
June 27, 2011



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Michael B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John C. Kammeyer, LP 5D-C
      Tom Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12910-05

     Mr. John Montgomery, Stantec
              Peer Review of Stantec Consulting Services, Inc.
      Plans for Construction - Northeast Dike Stability Improvements
                          Ash Disposal Area No. 2

             Tennessee Valley Authority Johnsonville Fossil Plant (JOF)
                New Johnsonville, Humphreys County, Tennessee



                                                                   Prepared for:




                                                       TVA Office of the Inspector General
                                                            Knoxville, Tennessee




                                                                   Prepared by:




                                                             Project No.: TVA106-07


                                                                Effective Date:
                                                               September 8, 2010


                                                                Date of Issuance:
                                                                 June 21, 2011


Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                    Peer Review of Stantec Consulting Services, Inc.
                                                     Plans for Construction – Northeast Dike Stability Improvements
                                                                  Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                        Tennessee Valley Authority - Office of the Inspector General
                                                      June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 1


Item 1:       TITLE PAGE
Title of Report

Peer Review of Stantec Consulting Services, Inc. (Stantec)
Plans for Construction - Northeast Dike Stability Improvements
Ash Disposal Area No. 2
Johnsonville Fossil (JOF) Plant
New Johnsonville, Humphreys County, Tennessee
Revision R1 dated March 12, 2010, and Calculation Package dated January 26, 2010

Project Location

The project site is located in New Johnsonville, Humphreys County, Tennessee, on the eastern
shore of Kentucky Lake.

Effective Date of Report

September 8, 2010

Qualified Persons



___________________________                        ___________________________
William S. Almes, P.E.                             Peter Lawson.
Formerly:                                          Executive Vice President
TVA OIG Contract Manager                           Principal-in-Charge
Senior Engineer & Director of                      Marshall Miller & Associates, Inc.
Geotechnical Services
Marshall Miller & Associates, Inc.

                                                   ___________________________
                                                   Christopher J. Lewis, P.E.
                                                   Formerly:
                                                   Principal Engineer
                                                   D’Appolonia, Engineering Division of
                                                   Ground Technology, Inc.


___________________________
Edmundo J. Laporte, P.E.                           ___________________________
Formerly:                                          Aaron J. Antell, P.E.
Senior Engineer                                    Project Engineer
Marshall Miller & Associates, Inc.                 D’Appolonia, Engineering Division of
                                                   Ground Technology, Inc.
                                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                                       Plans for Construction – Northeast Dike Stability Improvements
                                                                                    Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                                          Tennessee Valley Authority - Office of the Inspector General
                                                                        June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                              • Page 2


Item 2:            EXECUTIVE SUMMARY
          The Tennessee Valley Authority Office of the Inspector General retained Marshall Miller
& Associates, Inc. (Marshall Miller), to conduct a peer review of the construction drawing
package: “Plans for Construction, Ash Disposal Area No. 2, Northeast Dike Stability
Improvements, Johnsonville Fossil Plant, New Johnsonville, Tennessee” (Johnsonville NE Dike
Stabilization Plan) and supporting documents prepared by Stantec Consulting Services, Inc.
(Stantec), of Lexington, Kentucky. Based on Marshall Miller’s technical review, Stantec used
generally accepted methods and practices to design the stability improvements. Based on the
Stantec Calculation Package, Stantec also designed a slope configuration that provides
acceptable factors of safety for slope stability under long-term, steady-state seepage conditions.

          Marshall Miller’s specific scope of work for this assignment was to review the
documents prepared by Stantec with its proposed improvements to the stability of the Northeast
Dike of the Ash Disposal Area No. 2, which consisted of the following documents: Johnsonville
Northeast Dike Stabilization Plan Revision R1 dated March 12, 2010 (Issued for Construction),
and the related Calculation Package dated January 26, 2010,Quality Control Procedures, and a
sampling of Daily Field Reports (Nos. 001 through 046). These documents were prepared by
Stantec to address the findings of its Geotechnical Exploration and Slope Stability Evaluation for
Ash Disposal Areas 2 and 3, which Marshall Miller also peer-reviewed and commented upon in
a separate report. 1

          With regard to constructability, Marshall Miller found that the plans for construction
prepared by Stantec provide suitable guidance for construction. However, Marshall Miller found
that the details of the graded filter portion of the stabilization berm do not conform closely with
current standards of practice and present constructability issues at locations where the installation
conditions are more challenging (i.e., potentially submerged areas and steeper slope areas).
Accordingly, Marshall Miller recommends that Stantec increase the specified minimum
thickness of each filter layer, utilize a coarser aggregate filter layer directly against existing
riprap areas in lieu of the currently prescribed fine aggregate (sand), and require that existing


1
    See Marshall Miller’s Report entitled “Peer Review of Stantec Consulting Services, Inc. Report of Geotechnical Exploration
    and Slope Stability Evaluation, Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant.”
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                         Plans for Construction – Northeast Dike Stability Improvements
                                                                      Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                          June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 3

slopes be flattened to 1.5H:1V (or as otherwise determined necessary based on early
observations of the construction) to facilitate proper installation of the multi-layer graded filter.

Management’s Response to Draft Report

       To address this report, TVA management had Stantec review and respond to the findings
of this report. TVA management and its contractor provided additional information on the
findings and recommendations in this report. For complete responses, please see appendices A –
TVA Transmittal Memo and B – Stantec’s Response.

Marshall Miller Assessment of Management’s Comments to Draft Report

       Marshall Miller concluded that the additional information provided adequately addressed
the concerns and recommendations identified in the report. For a complete response, see
appendix C – Marshall Miller Response.
                                                                                              Peer Review of Stantec Consulting Services, Inc.
                                                                               Plans for Construction – Northeast Dike Stability Improvements
                                                                                            Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                                June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                      • Page 4


Item 3:              TABLE OF CONTENTS

ITEM 1:              TITLE PAGE ............................................................................ 1
ITEM 2:              EXECUTIVE SUMMARY .......................................................... 2
ITEM 3:              TABLE OF CONTENTS ............................................................. 4
ITEM 4:              INTRODUCTION AND BACKGROUND ..................................... 5
ITEM 5:              MARSHALL MILLER PROJECT TEAM ................................... 6
ITEM 6:              SCOPE OF SERVICE................................................................. 7
ITEM 7:              BACKGROUND......................................................................... 8
ITEM 8:              TECHNICAL REVIEW .............................................................. 9
ITEM 9:              CONSTRUCTABILITY REVIEW ............................................. 10
          9.1.       FINDINGS................................................................................................................10
          9.2.       RECOMMENDATIONS .............................................................................................11

APPENDICES

MEMORANDUM DATED MARCH 25, 2011, FROM ROBERT M. DEACY TO
ROBERT E. MARTIN.............................................................................................................APPENDIX A

MEMORANDUM DATED MARCH 24, 2011, FROM STEPHEN H. BICKEL TO
JOHN KAMMEYER .............................................................................................................. APPENDIX B

MEMORANDUM DATED JUNE 15, 2011, FROM JOHN E. FEDDOCK AND PETER LAWSON TO
GREG R. STINSON ................................................................................................................ APPENDIX C
                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                      Plans for Construction – Northeast Dike Stability Improvements
                                                                   Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                       June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 5


Item 4:       INTRODUCTION AND BACKGROUND
       The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller), to conduct a peer review of the
construction drawing package: “Plans for Construction, Ash Disposal Area No. 2, Northeast
Dike Stability Improvements, Johnsonville Fossil Plant, New Johnsonville, Tennessee”
(Johnsonville NE Dike Stabilization Plan) and supporting documents prepared by Stantec
Consulting Services, Inc. (Stantec), of Lexington, Kentucky. The TVA retained Stantec to
design a stabilization plan for the Northeast Dike at the Johnsonville Ash Disposal Area No. 2.
During its engagement, Marshall Miller reviewed the Northeast Dike Stabilization Plan Revision
R1 dated March 12, 2010 (Issued for Construction), and the related Calculation Package dated
January 26, 2010, and has documented its results herein.

       This report presents:

       •      The Marshall Miller project team.

       •      A description of Marshall Miller’s scope of service.

       •      Background information for the Johnsonville Fossil Plant.

       •      The findings and recommendations from Marshall Miller’s review of Stantec’s
              slope stabilization plan.
                                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                                      Plans for Construction – Northeast Dike Stability Improvements
                                                                                   Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                                         Tennessee Valley Authority - Office of the Inspector General
                                                                       June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                             • Page 6


Item 5:            MARSHALL MILLER PROJECT TEAM
         Marshall Miller, an employee-owned and Engineering News-Record Magazine top 500
company, began offering geologic services to the mining industry in 1975. Marshall Miller
provides a range of services to the mining, utility, financial, governmental, and legal industries.
Marshall Miller employs nearly 200 engineers, geologists, scientists and other professionals who
work from regional offices in ten states.

         Marshall Miller retained D’Appolonia, Engineering Division of Ground Technology,
Inc., of Monroeville, Pennsylvania, for its expertise with tailings dams and impoundments,
problem ground conditions, and forensic investigations.

         The Marshall Miller project team comprises seven professionals:

         •         Mr. Peter Lawson, Executive Vice President and Principal-in-Charge.

         •         Mr. William S. Almes, P.E., Director of Geotechnical Services and Project
                   Manager for the TVA OIG.

         •         Mr. Edmundo J. Laporte, P.E., Senior Engineer.

         •         Mr. William M. Lupi, P.E., Project Engineer.

         •         Mr. Richard G. Almes, P.E., Principal Geotechnical Engineer.

         •         Mr. Christopher J. Lewis, P. E., Principal Geotechnical Engineer. 2 Mr. Aaron J.
                   Antell, P.E., Project Engineer.2




2
    Christopher J. Lewis, P.E., and Aaron J. Antell, P.E., are Geotechnical Subconsultants of Marshall Miller and as of the
    effective date of this report were employed by D’Appolonia, Engineering Division of Ground Technology, Inc., Monroeville,
    Pennsylvania.
                                                                         Peer Review of Stantec Consulting Services, Inc.
                                                          Plans for Construction – Northeast Dike Stability Improvements
                                                                       Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                           June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 7


Item 6:        SCOPE OF SERVICE
        The OIG engaged Marshall Miller to perform a technical peer review of the northeast
dike improvement plans and supporting documents created by Stantec for Ash Disposal Area
No. 2 at the Johnsonville Fossil (JOF) Plant. Documents reviewed by Marshall Miller were
received in electronic format (pdf files) and included:

        •      Plans for Construction, Revision R1 dated March 12, 2010 (Issued for
               Construction).

        •      Calculation Package dated January 26, 2010.

        •      Quality Control Procedures (undated).

        •      Daily Field Reports, Report Nos. 001 through 046.

        Marshall Miller did not perform a parallel engineering design to the Stantec design for
the northeast dike improvements. Marshall Miller developed the findings and recommendations
herein based on review of the above-listed documents for the Johnsonville NE Dike Stabilization
Plan.

        In performing the professional services to compose this report, Marshall Miller used
generally   accepted   engineering    principles   and      practices        to     develop        findings        and
recommendations. Marshall Miller reserves the right to revise this report based on additional
information.   If OIG, TVA, TVA’s consultants, or others discover additional information
pertinent to the Johnsonville NE Dike Stabilization Plan at the JOF Plant, Marshall Miller
requests the opportunity to review the information for relevance to Marshall Miller’s findings
and recommendations herein.
                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                       Plans for Construction – Northeast Dike Stability Improvements
                                                                    Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                        June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 8


Item 7:        BACKGROUND
       The JOF Plant is located on the eastern shore of Kentucky Lake in New Johnsonville,
Humphreys County, Tennessee, and produces 550 million kilowatt-hours of baseload energy per
year. The ash disposal area is on a 125-acre island connected to the on-shore plant area by a
1,000-foot-long causeway. The causeway supports an asphalt paved road and pipes carrying
sluiced ash from the plant to the disposal area. The Active Ash Disposal Area on the island is
87 acres and is surrounded by a two-tiered clay dike system with a crest elevation of 390 feet (El.
390), or about 30 to 35 feet above the Kentucky Lake pool level. The dike supports a perimeter
access road and has outslopes measuring from 1.5H:1V on the inland side to greater than 2H:1V
on the lake side.

       The construction of the island, that would later become Ash Disposal Areas 2 and 3, was
initiated as a result of dredging for the boat harbor and condenser water inlet channels. Between
1949 and 1952, dredge spoil was hydraulically placed to form a breakwater at what is now the
east dike of Ash Disposal Areas 2 and 3. The top of the breakwater was about El. 370. From the
JOF Plant’s completion in 1952 to the mid-1960s, TVA disposed of ash in Disposal Area 1. As a
result of Disposal Area 1 reaching its maximum storage capacity, TVA constructed Ash Disposal
Area 2 in 1968 and 1969 using a dike to connect the ends of the breakwater, forming an enclosed
area. In 1970, TVA raised the crest of the perimeter dike to El. 378 (Lower Clay Dike) to protect
the island from inundation during periods of high lake levels. In 1974, TVA raised the dike crest
to El. 390 (Upper Clay Dike) to provide additional ash disposal capacity.

       During the 1980s and 1990s, TVA operated additional ash disposal facilities within the
JOF reservation. During operation of these additional disposal facilities, TVA sluiced ash to the
island disposal area and then dredged and pumped ash to the new facilities for final disposal.
The current ash disposal practice at the JOF Plant consists of sluicing ash to channels on the
active island disposal area, removing ash from those channels with excavators, stacking ash for
drying, and hauling ash off-site for final disposal in permitted landfills. These activities are
carried out by Trans-Ash Incorporated.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                        Plans for Construction – Northeast Dike Stability Improvements
                                                                     Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                         June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 9


Item 8:        TECHNICAL REVIEW
       Marshall Miller reviewed documents developed by Stantec that relate to the Johnsonville
NE Dike Stabilization Plan at Ash Disposal Area No. 2, including the plans for construction,
calculation package, quality control procedures, and a sampling of daily field reports.                            In
Marshall Miller’s professional opinion, Stantec used generally accepted methods and practices to
design the stability improvements. Based on the Calculation Package, Stantec used generally
accepted methods for design of the aggregate filters. The aggregate filters are components of the
riprap stabilization berm/buttress and aggregate blanket drain features of the stability
improvements that reduce the potential for seepage and piping/internal erosion problems. Based
on the Calculation Package, Stantec also designed a slope configuration that provides acceptable
factors of safety for slope stability under long-term, steady-state seepage conditions.
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                         Plans for Construction – Northeast Dike Stability Improvements
                                                                      Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                          June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 10


Item 9:          CONSTRUCTABILITY REVIEW
       Marshall Miller also performed a constructability review of the plans for construction
developed by Stantec for the Johnsonville NE Dike Stabilization Plan. In Marshall Miller’s
professional opinion and experience, the plans provide suitable guidance for construction.
However, Marshall Miller found that the details of the graded filter portion of the stabilization
berm do not conform closely with current standards of practice and present constructability
issues at locations where the installation conditions are more challenging (i.e., potentially
submerged areas and steeper slope areas).

9.1.   FINDINGS
       Upon review of the plans for construction developed by Stantec, Marshall Miller found
the following:

       •         In Marshall Miller’s opinion, a thickness of six inches for each filter layer is
                 inadequate to ensure the reliability of the aggregate filter layers. In non-critical
                 applications with well-controlled construction processes, a 12-inch minimum
                 thickness for each filter layer would conform more closely with current standards
                 of practice. In critical applications such as internal drainage systems for dams or
                 in situations where construction conditions are challenging, a minimum thickness
                 for each filter layer in the range of 18 inches to 36 inches would be more
                 common.

       •         On Drawing No. 10W503-03, Stantec specifies placement of the graded filter on
                 top of existing riprap. The bottom layer of the graded filter consists of Tennessee
                 Department    of    Transportation    (TDOT)         fine      aggregate         for      concrete
                 (Section 903.01 Standard Specifications for Road and Bridge Construction),
                 which is not suitable for placement against the existing riprap.                        This fine
                 aggregate will be prone to migrate through the relatively large voids of the
                 existing riprap, thereby compromising the graded filter.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                        Plans for Construction – Northeast Dike Stability Improvements
                                                                     Ash Disposal Area No. 2, Johnsonville Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                         June 21, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 11


       •      On Drawing No. 10W503-04, Stantec shows the graded filter installed on existing
              slopes that are equal to or steeper than one horizontal to one vertical (1V:1H). In
              Marshall Miller’s opinion, the construction of thin filter layers on such steep
              slopes to the configurations proposed by Stantec is impractical.

9.2.   RECOMMENDATIONS
       Marshall Miller has developed the following recommendations for consideration.

       •      Marshall Miller recommends a minimum aggregate thickness of 12 inches for
              each filter layer to conform more closely to current standards of practice.

       •      Where the graded filter is proposed over existing riprap, Marshall Miller
              recommends that a coarser aggregate filter layer be used directly against the
              existing riprap in lieu of the TDOT fine aggregate (sand) for concrete.

       •      Marshall Miller recommends that existing slopes be flattened to 1.5H:1V (or as
              otherwise determined necessary based on early observations of the construction)
              to facilitate proper installation of the multi-layer graded filter.
APPENDIX A
                                                                                       APPENDIX B



                           Stantec Consulting Services Inc.
                           1901 Nelson Miller Parkway
                           Louisville KY 40223-2177
                           Tel: (502) 212-5000
                           Fax: (502) 212-5055




March 24, 2011                                                               let_016_175559008


Mr. John Kammeyer
Vice President
Tennessee Valley Authority
1101 Market Street, LP 5G
Chattanooga, Tennessee 37402

Re:     Response to Comments
        Marshall Miller Review – March 16, 2011
        Stantec Plans for Construction – Northeast Dike Stability Improvements
        Version R1- 3/12/2010
        Johnsonville Fossil Plant Ash Disposal Areas 2 and 3

Dear Kammeyer:

As requested, Stantec has completed a review of Marshall Miller and Associates (Marshall
Miller) report: Peer Re view of Sta ntec Consul ting Service s Inc. Plans for Constr uction –
Northeast Dike Stabil ity Improvements Ash Di sposal Ares 2 and 3 , dated March 16, 2011.
Marshall Miller’s recommendations and Stantec’s corresponding responses are listed below.

Item 9: Constructability Review

Item 9.1 and 9.2 - First bullets - MM Findings and Recommendation: In Marshall Miller's
opinion, a thickness of six inches for each filter layer is inadequate to ensure the reliability of
the aggregate filter la yers. In n on-critical a pplications with well-co ntrolled con struction
processes, a 12-inch minim um thickness for e ach filter la yer should conform more closely
with current standards of practice. In critical applications such as int ernal drainage systems
for dams or in situations where construction conditions are challenging, a minimum thickness
for each filter layer in the range of 18 inches to 36 inches would be more common. Marshall
Miller reco mmends a m inimum a ggregate thi ckness of 1 2 inches fo r each fil ter layer to
conform more closely to current standards of practice.

Stantec Re sponse: Construction of this project was completed in August, 2010, and the
graded filters are now buried beneath the riprap toe buttress (see attached Photos 1 and 2).
During construction, filter placement was closely observed by Stantec and thicknesses were
checked each day. The filters were constructed using the specified materials and to the
specified minimum thicknesses. The daily inspection field reports indicate the filters were
built per the construction plans and there were no constructability issues. Thicker filter layers
were placed in some cases, as appropriate, to facilitate successful filter construction. Actual


                                 Stantec Consulting Services Inc.
                                   One Team. Infinite Solutions.
                                                                                                                           APPENDIX B



Tennessee Valley Authority
March 24, 2011
Page 2



filter thicknesses ranged from 6 to 12 inches. In addition, the area has been observed
periodically since completion of construction, and no issues have been noted. Also, the
north end of the disposal facility has been dewatered by relocating the sluice channel away
from this area and by maintaining a dewatered condition within the resulting abandoned
channel. It is Stantec’s opinion the filters were adequately constructed and that proper
seepage mitigation has been achieved for the Northeast dike. The attached photos illustrate
the improvements by showing before and after conditions, filter construction, and the
dewatered sluice channel above the dike.

Item 9.1 and 9.2 - Second bullets - MM Findings and Recommendation: On Drawing No.
10W503-03, Stantec specifies pla cement of th e graded filter on top of existing rip rap. Th e
bottom layer of the graded filter consists of Tennessee Department of Transportation (TDOT)
fine aggregate for concrete (Section 903.01 Standard Specificat ions for Road and Bridge
Construction), which is not su itable for pl acement against the existing riprap.         This fine
aggregate will be pron e to m igrate through th e relatively l arge void s of the e xisting riprap,
thereby compromising the graded filter. Where the graded filter is proposed over the existing
riprap, Marshall Miller r ecommends that a coa rser aggreg ate filter la yer be used directly
against the existing riprap in lieu of the TDOT fine aggregate (sand) for concrete.

Stantec Response: As indicated above, construction of this project was completed in
August, 2010. The existing riprap pieces were typically relatively small (about 6 to 10 inches
maximum size) and the riprap displayed a pre-existing “choked” surface where voids were
mostly filled with smaller stone or sediment. During placement of the graded filter over the
existing riprap, the Contractor made efforts to adequately spread sand and fill the remaining
riprap voids prior to placing subsequent filter layers. Based on these observations and
efforts, it is Stantec’s opinion that an adequate filter system was constructed over the existing
riprap. See attached Photos 11 and 12 which illustrate filter construction in this area.

Item 9.1 and 9.2 - Third bullets - MM Findings and Rec ommendation: On Drawing No.
10W503-04, Stantec shows the graded filter installed on existing slope s that are equal to or
steeper tha n one hori zontal to o ne vertica l (1H:1V). In Marshall Miller's op inion, the
construction of thin filte r layers on such steep slopes to t he configur ations prop osed by
Stantec is i mpractical. Marshall Miller reco mmends that exi sting slopes be fl attened to
1.5H:1V (or as otherwise determ ined to be necessary based on early observatio ns of the
construction) to facilitate installation of the multi-layer graded filter.

Stantec Response:         Concur with MM’s recommendation. During construction, the
Contractor cut back steeper slope areas to create flatter slopes and then placed the filter
materials. These locations varied throughout the project length, but typically extended along
the lower slope in areas of trees, saplings and woody vegetation. See attached Photos 13
and 14 which illustrate these additional efforts.




V:\1755\active\175559008\clerical\correspondence\let_016_ne_dike_rpt_response_mm\let_016_jof_ne_dike_response_to_mm.docx
                                                                                                                           APPENDIX B



Tennessee Valley Authority
March 24, 2011
Page 3




We appreciate the opportunity to provide these responses. If you have any questions or
need additional information, please call.

Sincerely,

STANTEC CONSULTING SERVICES INC.




Stephen H. Bickel, PE
Senior Principal


/db

Cc:           Roberto L. Sanchez, PE
              Michael S. Turnbow

Enclosure - Photographs




V:\1755\active\175559008\clerical\correspondence\let_016_ne_dike_rpt_response_mm\let_016_jof_ne_dike_response_to_mm.docx
                                                     APPENDIX B

                                  Johnsonville Fossil Plant (JOF)
                                          Ash Disposal Area No. 2
                           Northeast Dike Stability Improvements
               Response to Marshall Miller Peer Review Comments
                                                       Photo Log




Photo 1   Northeast Dike after improvements.




Photo 2   Northeast Dike just prior to completion.



                                                             a
                                                  APPENDIX B

                                 Johnsonville Fossil Plant (JOF)
                                         Ash Disposal Area No. 2
                          Northeast Dike Stability Improvements
              Response to Marshall Miller Peer Review Comments
                                                      Photo Log




Photo 3   Northeast Dike prior to remedial
          construction.




Photo 4   Northeast Dike prior to remedial
          construction.

                                                            b
                                                                     APPENDIX B

                                            Johnsonville Fossil Plant (JOF)
                                                    Ash Disposal Area No. 2
                                     Northeast Dike Stability Improvements
                         Response to Marshall Miller Peer Review Comments
                                                                 Photo Log




Photo 5              Riprap buttress after completion and prior to
                     dike regrading.




          No. 3’s


          No. 57’s



          Sand




Photo 6              Filter layers being placed during
                     construction.

                                                                            c
                                                                     APPENDIX B

                                                  Field Report January 6, 2011
                                             Existing Spillway Closure Project
                                              Johnsonville Fossil Plant (JOF)
                                                      Ash Disposal Area No. 2
                                                                   Photo Log




                        No. 57’s




                             Sand




Photo 7             Filter layers placed during construction.




          No. 3’s
                                                      No. 57’s




Photo 8             No. 3 stone filter layer being placed over the
                    No. 57 stone layer.


                                                                            d
                                                     APPENDIX B

                                 Johnsonville Fossil Plant (JOF)
                                         Ash Disposal Area No. 2
                          Northeast Dike Stability Improvements
              Response to Marshall Miller Peer Review Comments
                                                      Photo Log




Photo 9    Former sluice channel now dewatered and
           unused along the Northeast Dike (viewed
           looking south).




Photo 10   Former sluice channel now dewatered and
           unused along the Northeast Dike (viewed
           looking north).
                                                            e
                                                                    APPENDIX B

                                         Johnsonville Fossil Plant (JOF)
                                                 Ash Disposal Area No. 2
                                  Northeast Dike Stability Improvements
                      Response to Marshall Miller Peer Review Comments
                                                              Photo Log




                                        Existing Riprap




                                                   New Riprap
                                                  Starter Berm



Photo 11          Slope interval containing the existing riprap
                  prior to remedial construction. The existing
                  riprap is relatively small (maximum size ~ 6”).




                                       No. 3’s



     No. 57’s




           Sand




Photo 12          Filter layers being successfully placed over
                  the existing riprap.

                                                                            f
                                                             APPENDIX B

                                   Johnsonville Fossil Plant (JOF)
                                           Ash Disposal Area No. 2
                            Northeast Dike Stability Improvements
                Response to Marshall Miller Peer Review Comments
                                                        Photo Log




Photo 13   Section of slope that was cut back as a result
           of tree and rootwad removal.




Photo 14   Interval of lower slope that has been filled by
           placing thicker layers of filter materials to
           facilitate filter construction.

                                                                    g
                                                                                                    APPENDIX C
       Ashland, VA • (804) 798-6525                                                    Charleston, WV • (304) 344-3970
       Beckley, WV • (304) 255-8937                                                     Kingsport, TN • (423) 279-9775
       Bluefield, VA • (276) 322-5467                                                   Lexington, KY • (859) 263-2855
      Bossier City, LA • (318) 747-7734                                                  Mission, KS • (913) 648-4424
       Camp Hill, PA • (717) 730-7810                                                    Raleigh, NC • (919) 786-1414
                                                    www.mma1.com
     5900 Triangle Drive / Raleigh, NC 27617 / Tel (919) 786-1414 / Fax (919) 786-1418 / Email raleigh@mma1.com

                                                  June 15, 2011



    Mr. Greg R Stinson
    Director, Inspections
    Tennessee Valley Authority
    Office of the Inspector General
    1101 Market Street EB 2G-C
    Chattanooga, TN 37402-2801

    Re:       Response to Comments to OIG Draft Inspection 2009-12910-05
              Facility:     Johnsonville Fossil Plant
              Report Title: Plans for Construction – Northeast Dike Stability Improvements, Version
                            R1
              Firm:         Stantec Consulting Services Inc. (Stantec)
              Date:         March 12, 2010

    Dear Mr. Stinson:

    Marshall Miller & Associates, Inc. (Marshall Miller) was contracted by the Tennessee Valley
    Authority Office of the Inspector General (TVA OIG) to provide response and rebuttal to
    comments prepared by Stantec Consulting Services Inc. (Stantec) dated March 24, 2011.
    These comments were prepared for TVA in response to Marshall Miller’s Technical Peer
    Review of the March 12, 2010, Stantec report entitled Plans for Construction – Northeast Dike
    Stability Improvements Ash Disposal Areas 2 and 3.


    Mr. Stephen H. Bickel, PE, of Stantec reviewed Marshall Miller’s peer review and provided
    response in a March 24, 2011, letter report. Marshall Miller’s responses are provided below.

    Stantec’s Response to Items 9.1 and 9.2
    Stantec’s response is acknowledged, and Marshall Miller finds that TVA and Stantec have
    satisfactorily addressed the TVA OIG’s comments through construction performance verification
    and explanation/clarification, as appropriate. It should be noted that Marshall Miller still
    maintains that the proposed and constructed aggregate filter thicknesses associated with the
    Johnsonville Fossil Plant Dike Stability Improvements do not approach current standards of
    practice.     However, given the explanation by TVA and Stantec that other seepage



     ENERGY & MINERAL RESOURCES •CIVIL & STRUCTURAL ENGINEERING •ENVIRONMENTAL SCIENCES •HYDROGEOLOGY & GEOLOGY
CARBON MANAGEMENT •EXPERT WITNESS TESTIMONY •MINING ENGINEERING •GEOPHYSICAL LOGGING SERVICES •PETROLEUM ENGINEERING
                                                                                                APPENDIX C
                                                                                          Mr. Greg R. Stinson
                                                Tennessee Valley Authority-Office of the Inspector General
                 Technical Rebuttal to March 24, 2011, TVA Response to OIG Draft Inspection, 2009-12910-05
                                      Peer Review of the Johnsonville Fossil Plant Dike Stability Improvements
                                                                                                   June 15, 2011
                                                                                                     Page 2 of 2

mitigation/reduction measures have been implemented (relocation of the sluice channel away
from the north end of the disposal facility and maintenance of a dewatered condition within the
resulting abandoned channel), Marshall Miller can accept this position on this specific matter.

Thank you for the opportunity to submit a response to comments.                     Should you have any
questions or need additional clarification, please contact Peter Lawson at (304) 255-8937


Sincerely,

MARSHALL MILLER & ASSOCIATES, INC.




John E. Feddock, P.E.                                  Peter Lawson
Senior Vice President                                  Executive Vice President
                                                       Principal-in-Charge

Attachments
cc:    Mr. Robert E. Martin, Assistant Inspector General (Audits & Inspections)
       Ms. Julie Lovingood, Auditor
